HHS/OIG-Audit--"Audit of Medicare Administrative Costs Claimed Under Medicare Part B for Empire Blue Cross Blue Shield, (A-02-92-01028)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Administrative Costs Claimed Under Medicare Part B for Empire Blue Cross Blue Shield," (A-02-92-01028)
September 24, 1992
Complete
Text of Report is available in PDF format (1.12 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Empire Blue Cross Blue Shield (Empire) contracts with the Health Care Financing Administration to serve as a Medicare
Part B carrier in New York State. During the period of our audit, October 1, 1984 through September 30, 1989, Empire processed
approximately 94 million claims, paid about $7 billion in Part B benefits, and claimed around $216 million in administrative
costs. We determined that $2,533,711 of the $216,562,200 administrative costs claimed by Empire were unallowable.